No. 20·1448

IN THE

~upr.em.e

Qlnurf of tq.e lntt.eb

~tat.es

DONNA CORBELLO,

Petitioner,
v.
FRANKIE VALLI, ET AL.,

Respondent.

CERTIFICATE OF SERVICE
I, Gregory Harris Guillot, counsel for the Petitioner, and a member of the Bar of
this Court, certify that on June 11, 2021, pursuant to an agreement between the
parties, I served a copy of the Reply Brief for Petitioner in the above-captioned case
by electronic mail, upon David S. Korzenik, of Miller Korzenik Sommers Rayman
LLP, 1501 Broadway, Suite 2015, New York, NY 10036, who is Counsel of Record
for all Respondents herein, via the electronic mail address, dkorzenik@mkslex.com .
I further certify that all parties required to be served have been served. Finally, I
certify that on this same date, I filed the brief with the Court by Priority Express
Mail, postage prepaid, under Tracking No. EJ823024355US.
Executed in Dallas, Texas on this 11th day of June, 2021.

GREGORY H. GUILLOT, P.C.
2626 COLE AVE., SUITE 300
DALLAS, TX 75204
(972) 888-6072
gregory@guillot-law.com
Counsel for Petitioner

